TREASURY INSPECTOR GENERAL FOR TAX ADMINISTM TION




                     Fiscal Year 2006 Statutory Audit of
                      Compliance With Legal Guidelines
                  Prohibiting the Use of Illegal Tax Protester
                           and Similar Designations



                                           July 13, 2006

                              Reference Number: 2006-40-098




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax ReturnRetum Information

 Phone Number       / 202-927-7037
 Email Address      / Bonnie.Hea/d@tigta.treas.gov
 Web Site          / http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY

                                                        WASHINGTON, D.C. 20220




TRLASllRY INSPECIOR GENLRAL
  FOR TAX ADMINISTRATION




                                                   July 13,2006


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT
                DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

                               Michael R. Phillips
                                                  n.3Lf4w
                               Deputy Inspector General for Audit

                               Final Audit Report - Fiscal Year 2006 Statutory Audit of Compliance
                               With Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                               Similar Designations (Audit # 200540039)

This report presents the results of o w review to determine whether the Internal Revenue Service
(IRS) complied with IRS Restructuring and Reform Act of 1998 (RRA 98)' Section (5) 3707 and
internal IRS guidelines that prohibit IRS officers and employees from referring to taxpayers as
Illegal Tax Protesters (ITP) or any similar designations.



Prior to enactment of the RRA 98, taxpayers could be designated as ITPs if their tax returns or
correspondence contained specific indicators of noncompliance with the tax law, such as the use
of arguments that had been repeatedly rejected by the courts. Once a taxpayer's account was
coded with an ITP indicator, certain tax enforcement actions were accelerated. The designation
was also intended to alert IRS employees to be cautious so they would not be drawn into
confrontations with taxpayers.
RRA 98 5 3707 prohibits the IRS from using the ITP or any similar designations. The Treasury
Inspector General for Tax Administration is required to annually evaluate IRS compliance with
this prohibition on the use of ITP or any similar designation^.^


' Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sectlons of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
  Internal Revenue Code 9 7803(d)(l)(A)(v) (2000 Suppl. 2).
                                   Fiscal Year 2006 Statutory Audit of Compliance
$


!                                     With Legal Guidelines Prohibiting the Use of
                                    Illegal Tax Protester and Similar Designations



    The IRS has not reintroduced past ITP codes on the Master File,3and formerly coded ITP
    taxpayer accounts have not been assigned similar
    Master File designations. In addition, the IRS does    In 287 instances, IRS employees
    not have any current publications with ITP               referred to taxpayers as ITPs
                                                           and similar designations in case
    rcferences and has initiated actions to remove the        narratives, which other IRS
    one remaining ITP reference from the various          employees may view as negative
    formats of the Internal Revenue Manual."owever,           during subsequent contacts
    in 287 instances, IRS employees referred to                     with taxpayers.
    taxpayers as ITPs or other similar designations in
    case narratives.
    In our Fiscal Year 2002 report, we noted that IRS employees were still using ITP or similar
    designations in their case narratives, and recommended that IRS management reinforce that
    taxpayers should not be referred to as ITPs or similar designations and consult with its Office of
    Chief Counsel on the use of these designations. In August 2002, the IRS responded that it
    requested guidance from its Office of Chief Counsel regarding the designations. Once guidance
    was received, the IRS planned to issue a memorandum to all employees reinforcing the
    importance of not referring to taxpayers as ITPs. However, the IRS' Office of Chief Counsel did
    not agree that employee use of ITP or similar designations in case narratives were potential
    violations of the RRA 98 5 3707. As such, we are in disagreement with IRS management over
    this issue and we will continue to report these instances of IRS employees using ITP or similar
    designations in their case narratives. We have consistently advised Department of the Treasury
    management of our concern over IRS management's position on this matter.
    We continue to believe that using the ITP or other similar designations in case narratives may
    stigmatize taxpayers and may cause IRS employee bias in future contacts with these taxpayers.
    Electronic case narratives are available to other IRS employees for future reference and may
    impact the opinions and the actions of employees working the taxpayers' cases.

    Recommendation
    We recommended IRS management issue a memorandum to all employees to reinforce that
    taxpayers are not to be referred to as "tax protesters," "ITPs," "constitutionally challenged," or
    any other similar designations.




      The Master File is the IRS database that stores various types of taxpayer account information. This database
    includes individual, business, and employee plans and exempt organizations data.
    'The Internal Revenue Manual is the manual containing the IRS' internal guidelines.
                                                                                                                     2
                              Fiscal Year 2006 Statutory Audit of Compliance
I                                With Legal Guidelines Prohibiting the Use of
                               lllegal Tax Protester and Similar Designations



    Response
    IRS management will issue a memorandum to all employees to reinforce compliance with
    RRA 98 tj 3707. In addition, they stated they would work with Treasury Inspector General for
    Tax Administration management to reconcile differences regarding the IRS' legal guidance and
    take actions as appropriate.
    In their general discussion of our report, IRS management also stated the following:
           You identrfied 130 cases in whrch IRS employees used the term "tax protestor" or
           similar designation because taxpayers described themselves as such. Although you
           did not consider these history references to be violations, and noted that no
           taxpayer rights were violated, you were concerned that these references could
           stigmatize these taxpayers in future contacts with the IRS.
    Management's complete response to the draft report is included as Appendix VI.

    Office of Audit Comment
    We are concerned that the IRS response misinterprets the issue we reported. As we stated in our
    report, we did not include any instances of employees only documenting statements made by a
    taxpayer andlor his or her representative. The 130 instances we noted did not relate to taxpayers'
    self-descriptions, but rather to case narratives in which employees made references about the
    taxpayers' actions (e.g., taxpayer sent letters containing "typical protester language" or
    responded with "protester jargon," etc.). While we believe this practice should be discouraged,
    we did not take exception to these instances because making references to a taxpayer's actions
    does not necessarily constitute a designation prohibited by this statutory provision.
    Our primary concern is with 287 instances in which employees had referred to taxpayers as "tax
    protesters," "ITPs," "constitutionally challenged," or other similar designations in case
    narratives. We believe these references in case narratives are prohibited by RRA 98 tj 3707.
    Our recommendation was to address this concern.
    We are also concerned about IRS management's delay in resolving the issue related to its legal
    guidance on RRA 98 5 3707. We advised IRS and Department of the Treasury management in
    April 2006, well in advance of the issuance of our final report, so that the resolution could be
    properly noted in this report. We believe this issue must be resolved before the IRS can provide
    appropriate guidance to its employees to reinforce compliance with RRA 98 5 3707.
    Copies of this report are also being sent to the IRS managers affected by the report
    recommendation. Please contact me at (202) 622-65 10 if you have questions or
    Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
    Programs), at (202) 622-59 16.

                                                                                                       3
                                    Fiscal Year 2006 Statutory Audif of Compliance
                                       With Legal Guidelines Prohibiting the Use of
                                     Illegal Tax Protester and S i M a r Designations




                                              Table of Contents


Background ................................. ..................................................................... Page      1


Results of Review .... ........... ....................................... .... ....... ...........................Page      3
          Illegal Tax Protester Codes Were Not Used on the
          Master File ...................... ................................................. ..................... ....Page 3
          Internal Revenue Service Publications Do Not Contain
          Illegal Tax Protester References ......................... ....................................... Page 3
          The Internal Revenue Service Has Initiated Steps to Remove
          Illegal Tax Protester References From the Internal Revenue
          Manual ......... .................................... ............ . . ............................ Page 4
          In Some Instances, Employees Used Illegal Tax Protester
          or Similar Designations in Case Narratives ................................................ Page 5
                    Recommendation 1: ....................................................a             7

Appendices
          Appendix I - Detailed Objective, Scope, and Methodology ....................... Page 9
          Appendix I1 - Major Contributors to This Report ...................................... Page 12
          Appendix I11 - Report Distribution List ..................................................... Page 13
          Appendix IV - Outcome Measures ...........................................................Page 14
          Appendix V - Examples of Illegal Tax Protester and Similar
          Designations Found in Case Narratives ......................................................Page 16
          Appendix VI - Management's Response to the Draft Report .....................Page 17
                               Fiscal Year 2006 Statutory Audit of Compliance
                                  With Legal Guidelines Prohibiting the Use of
                                Illegal Tax Protester and Similar Designations




                                             Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98)'
Section ( 5 ) 3707 prohibits the IRS from using the Illegal Tax Protester (ITP) or any similar
designations. In addition, the RRA 98 requires the removal of all existing ITP codes from the
IRS Master File2and instructs IRS employees to disregard any such designation not located on
the Individual Master File.3
Prior to enactment of the RRA 98, the IRS had the ITP Program to identify individuals and
businesses using methods that were not legally valid to protest the tax laws. IRS employees
identified taxpayers for referral to the ITP Program when their tax returns or correspondence
contained specific indicators of noncompliance with the tax law, such as the use of arguments
that had been repeatedly rejected by the courts. There were IRS tax protester coordinators who
were responsible for determining whether a taxpayer should be included in the ITP Program. If a
taxpayer was classified as an ITP, the taxpayer's record was coded as such on the IRS' Master
File. Once a taxpayer's account was coded as an ITP, certain tax enforcement actions were
accelerated. The designation was also intended to alert IRS employees to be cautious so they
would not be drawn into confrontations with taxpayers.
Congress was concerned that some taxpayers were being permanently labeled and stigmatized by
the ITP designation. There were many instances of taxpayers who subsequently complied with
the tax laws but continued to be labeled as ITPs. The concern was that this label could bias IRS
employees and result in unfair treatment.
The RRA 984 requires the Treasury Inspector General
for Tax Administration (TIGTA) to annually evaluate                      The TIGTA is required to
IRS compliance with the prohibition against using the                     annually evaluate IRS
ITP or any similar designations. This is our eighth                   compliance with the prohibition
review since Fiscal Year (FY) 1999. These reviews                      against using the ITP or any
have identified areas for improvement to help the IRS                     similar designations.
comply with the ITP designation prohibition.
This review was performed in the Appeals function, Criminal Investigation function, National
Taxpayer Advocate function, and Office of Chief Counsel in Washington, D.C.; the Small

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16U.S.C., 19U.S.C., 22U.S.C., 23 U.S.C., 26U.S.C., 31 U.S.C., 38 U.S.C., and49U.S.C.).
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
  This is the IRS database that maintains transactions or records of individual tax accounts.
' RRA 98 added Internal Revenue Code §7803(d)(l)(A)(v)(2000 Suppl. 2).
                                                                                                            Page 1
                         Fiscal Year 2006 Statutory Audit of Compliance
                            With Legal Guidelines Prohibiting the Use of
                          lllegal Tax Protester and Similar Designations



BusinessISelf-Employed (SBISE) Division in New Carrollton, Maryland; and the Wage and
Investment Division in Atlanta, Georgia, during the period August 2005 through February 2006.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix 11.




                                                                                       Page 2
                           Fiscal Year 2006 Statutory Audit of Compliance
                              With Legal Guidelines Prohibiting the Use of
                            Illegal Tax Protester and Similar Designations




                                 Results of Review

Illegal Tax Protester Codes Were Not Used on the Master File
Prior to the RRA 98, the IRS used ITP codes on the Master File to accelerate collection activity
for taxpayers who were delinquent in filing tax returns or paying their taxes. These codes were
also intended to alert IRS employees that there might be problems encountered when dealing
with these types of taxpayers.
Congress was concerned about the use of the ITP designation because:
       Taxpayers were labeled as ITPs without regard to their filing obligations or compliance.
       ITP indicators were not always reversed when taxpayers became compliant with their tax
       obligations.
RRA 98 5 3707 required the IRS to remove the existing ITP designations from taxpayers'
accounts on the Master File beginning January 1, 1999.
In prior reviews, we reported the IRS had removed the ITP codes from the Master File as
required by the RRA 98. Based on our analysis of approximately 1.2 million taxpayer accounts
coded for accelerated collection activity, the IRS has not reintroduced these ITP designation
codes on the Master File. RRA 98 5 3707 also prohibits using any designation similar to the
ITP. We reviewed the approximately 57,000 taxpayer accounts formerly coded as ITPs on the
Master File and confirmed that the IRS had not input any other Master File designations similar
to the ITP on these accounts.

Internal Revenue Service Publications Do Not Contain Illegal Tax
Protester References                       vou     z.::
                                                   .-.""
                                           ,zz!?Tu -
                                                                 r.drrl



To help promote compliance with RRA 98
5 3707, IRS management issued directives
for employees to update various
publications to eliminate references to ITP
terminology and programs. The TIGTA
reviews prior to FY 2002 identified several
publications that contained ITP references.
                                                                             -------. ._.C__l              -.--
When notified of the problem, the IRS had                                    -- ---.-...-
                                                                             --
                                                                             ,-..
                                                                             ,
                                                                                      : i;i-

                                                                                          -.
                                                                                             i




                                                                                                                 1
                                                                             mr;,-;.cz.i!.Z'.?-            A*'
either revised the publication or labeled it                                 s,- -=== :=-.-:+. .=
                                                                             :r.?:llil-:=--zr-7
                                                                             .--.   -+ ---::,-::- A!
                                                                                               1 - 1 . .




as being obsolete. Our review of available                                   -   -.?=Y-
                                                                                                     -

                                                                                                                 Page 3
                                   Fiscal Year 2006 Statutory Audit of Compliance
I
i                                     With Legal Guidelines Prohibiting the Use of
                                    Illegal Tax Protester and S i M a r Designations



    IRS publications on the Servicewide Electronic Research Program (SERP)? the IRS public
    Internet web site, the IRS' Electronic Publishing web site, and the IRS 2004 Federal Tax
    Products CD-ROM did not identify any current ITP references. By eliminating the ITP
    references fiom IRS forms, documents, letters, and training materials, the IRS prevents
    employees fiom using or following these outdated references or guidelines.

    The lnternal Revenue Service Has Initiated Steps to Remove Illegal
    Tax Protester References From the lnternal Revenue Manual
    In each of our seven prior reviews, we
    identified ITP references in multiple
    subsections throughout the various formats of
    the Internal Revenue Manual (IRM).6 The
    IRM is maintained in various electronic and
    manual formats, such as the Official IRM on
    the IRS' Electronic Publishing web site, the
    IRM online, the IRM on the SERP, the IRM on
    IRS.gov, the IRM on CD-ROM, and the paper
    IRM. The graphic to the right shows the
    relationship between the Official IRM and the                       -   . .. T          --
                                                                      lmarna R-nt*     Manxrd
    various formats of the IRM available to IRS                 lnmnal R s r e n u Manual

    employees.
    During our FY 2005 review, we reported there
    were 19 unique ITP references throughout
                                        -     the
    various formats of the IRM.7 In response to our last report, the IRS stated it had initiated actions
    to remove these remaining ITP references fiom the IRM.
    In our current review, we still found one unique ITP reference throughout the various formats of
    the IRM. This reference was previously identified and brought to the attention of
    SBJSE Division management during our last audit.' We have been told by SBJSE Division
    Compliance Policy management that as of October 1,2005, this reference has been removed
    fiom the SBJSE Division version of the IRM. However, due to delays in publishing, the Official
    IRM and all other subsidiary IRMs have not yet been updated.


      The SERP is an electronic researching tool containing many former paper research applications (e.g., publications,
    the IRM, the Probe and Response Guide, etc.).
      The IRM is the manual containing the IRS' internal guidelines.
    7
      Fiscal Year 2005 Statutory Audit of Compliance WithLegal Guidelines Prohibiting the Use of Illegal Tax
    Protester and Similar Designations (Reference Number 2005-40- 104, dated July 2005).
    8
      This reference was identified during our FY 2005 review because a portion of the IRM was changed fiom a picture
    format into a text format.
                                                                                                                Page 4
                              Fiscal Year 2006 Statutory Audit of Compliance
                                 With Legal Guidelines Prohibiting the Use of
                               //legal Tax Protester and Sihilar Designations



Removing all ITP references from the various formats of the IRM helps to avoid any
inappropriate implication that the use of this label is permitted. Based on the actions taken by
the IRS, we believe no further recommendations are warranted at this time.

In Some Instances, Employees Used lllegaI Tax Protester or Similar
Designations in Case Narratives
We found 287 instances in which 242 employees had referred to taxpayers as "tax protesters,"
"ITPs," "constitutionally challenged," or other similar designations in case narratives on the
following computer systems we sampled.
        Appeals Centralized Database System (ACDS):9 A review of 179,572 Appeals narrative
        comment records identified 4 cases in which 4 employees used similar designations when
        referring to specific taxpayers in their case narratives.
        Automated Collection System (ACS):"' A review of approximately 2.6 million open
        ACS cases identified 21 cases in which 18 employees used the ITP or similar
        designations when referring to specific taxpayers in their case narratives.
        Criminal Investigation Management Information System (CIMIS):" A review of
        10,076 open and 13,836 closed cases identified 7 cases in which 7 employees used
        similar designations when referring to specific taxpayers in their case narratives.
        Integrated Collection System (ICS):12 A review of approximately 452,000 open ICS
        cases identified 253 cases in which 2 11 employees used the ITP or similar designations
        when referring to specific taxpayers in their case narratives.
        Taxpayer Advocate Management Information System (TAMIS):13 A review of
        41,920 open TAMIS cases identified 2 cases in which 2 employees used the ITP or
        similar designations when referring to specific taxpayers in their case narrative^.'^
We believe these references are prohibited by RRA 98 fj 3707. Examples of the inappropriate
comments can be found in Appendix V. The following chart contains the number of ITP or

9
   The ACDS is a computerized system used to track case receipts, record case time, document case actions, and
monitor the progress of the Appeals function workload.
'' The ACS is a telephone contact system through which telephone assistors collect unpaid taxes and secure tax
returns from delinquent taxpayers who have not complied with previous notices.
    The CIMIS is a management tool used to track the status and progress of criminal investigations.
12
    The ICS is a computerized system used by Collection function employees to report taxpayer case time and
activity.
l 3 The TAMIS is an electronic database and inventory control system used by Taxpayer Advocate Service
employees.
14
    Due to some anomalies in the TAMIS records provided to TIGTA by the IRS, any of our conclusions or opinions
based on these data are qualified. More information on this qualification can be found in Appendix I.
                                                                                                        Page 5
                              Fiscal Year 2006 Statutory Audit of Compliance
                                 With Legal Guidelines Prohibitihg the Use of
                               lllegal Tax Protester and Similar Designations



similar designations identified in computer system case narratives during our FYs 2005 and
2006 reviews.
                               Figure 1: Illegal Tax Protester and
                             Similar Designations in Case Narratives




Source: Case narratives found on various IRS computer systems and the TIGTA report entitled Fiscal Year 2005
Statutov Audit of Compliance With Legal Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
Designations (Reference Number 2005-40-1 04, dated Ju& 2005).
We also identified 130 case narratives in which employees made references about the taxpayers'
actions (e.g., taxpayer sent letters containing "typical protester language," the taxpayer
responded with "protester jargon," etc.). We agree with the IRS that merely making references
to a taxpayer's actions does not constitute a designation prohibited by statute. However, we are
concerned these references could become, or be considered, permanent labels that could
subsequently stigmatize taxpayers in future contacts with the IRS. We did not include any
instances in which employees were only documenting statements made by a taxpayer andlor his
or her representative. Quoting a taxpayer's self-designation as an ITP is not prohibited by
RRA 98 5 3707.
In our FY 2002 report, we noted that IRS employees were still using ITP or similar designations
in their case narratives and recommended IRS management reinforce that taxpayers should not
be referred to as ITPs or similar designations and consult with its Office of Chief Counsel on the
use of these designations. In August 2002, the IRS responded that it requested guidance from its
Office of Chief Counsel regarding the designations. Once guidance was received, the IRS
planned to issue a memorandum to all employees reinforcing the importance of not referring to
taxpayers as ITPs. However, the IRS' Office of Chief Counsel did not agree that employee use
of ITP or similar designations in case narratives was a potential violation of the RRA 98 5 3707.
We are in disagreement with IRS management over this issue, and we will continue to report

                                                                                                       Page 6
                                Fiscal Year 2006 Statutory Audit of Compliance
                                   With Legal Guidelines Prohibiting the Use of
                                 IIIegaI Tax Protester and Similar Designations



these instances of IRS employees using ITP or similar designations in their case narratives. We
have consistently advised Department of the Treasury management of our concern over IRS
managements' position on this matter. Treasury officials have discussed this matter with the IRS
but have not yet reached a resolution.
Despite its disagreement with our position on the matter, the IRS has taken some actions to
prevent the ITP and similar designations &om being used in case narratives. On
October 11,2002, the IRS issued a SERP alert15reminding employees of the prohibition
regarding the use of ITP or any similar designations in case narratives. Some business units
continue to remind employees of the prohibition regarding the use of the ITP or any similar
designations. For example, the Wage and Investment Division conducts periodic quality reviews
for ITP use in its ACS function and counsels employees who designate taxpayers as ITPs or
other similar designations. In addition, the SB/SE Division issued a SERP alert on May 6, 2005,
reminding the cmployees in its ACS and other compliance servicc functions to refrain from using
the ITP or any similar designations in case narratives.
The statute states that officers and employees of the IRS shall not designate taxpayers as ITPs or
any similar designations. It further specified that existing designations in the Master File must
be removed and any other designations made before the effective date of the statute, such as
those on paper records that have been archived, must be disregarded. The Senate Committee
Report (S. Rep. No. 105-174) related to the RRA 98 tj 3707 provision stated the Senate
Committee was concerned that taxpayers might be stigmatized by a designation as an "illegal tax
protester." Based upon the language of the statute and the Senate Committee Report, we believe
IRS officers and employees should not label taxpayers as ITPs or similar designations in any IRS
records, which include paper and electronic case files. IRS officers and employees should not
designate taxpayers as such because a designation alone contains a negative connotation and
appears to label the taxpayer. Given the continued use of these terms by IRS employees, we
believe the IRS should reinforce to all its employees the importance of not referring to taxpayers
as ITPs or similar designations.

Recommendation
Recommendation 7: IRS management should issue a memorandum to all employees to
reinforce that taxpayers are not to be referred to as "tax protesters," "ITPs," ccconstitutionally
challenged" or any other similar designations.
          Management's Response: IRS management will issue a memorandum to all
          employees to reinforce compliance with RRA 98 tj 3707. In addition, they stated that
          they would work with TIGTA management to reconcile differences regarding the IRS'
          legal guidance and take actions as appropriate.


" Only   those employees that use the SERP would have had access to this alert.
                                                                                              Page 7
                   Fiscal Year 2006 Statutory Audit of Compliance
                      With Legal Guidelines Prohibiting the Use of
                    Illegal Tax Protester and Similar Designations



Office of Audit Comment: We are concerned about IRS management's delay in
resolving the issue related to its legal guidance on RRA 98 5 3707. We advised both IRS
and Department of the Treasury management in April 2006, well in advance of the
issuance of our final report, so that the resolution could be properly noted in this report.
We believe this issue must be resolved before the IRS can provide appropriate guidance
to its employees to reinforce compliance with RRA 98 5 3707.




                                                                                     Page 8
                               Fiscal Year 2006 Statutory Audit of Compliance
                                  With Legal Guidelines Prohibiting the Use of
                                Illegal Tax Protester and Similar Designations



                                                                                                   Appendix I

          Detai/ed Objective, Scope, and Methodology

The objective of this review was to determine whether the Internal Revenue Service (IRS)
complied with IRS Restructuring and Reform Act of 1998 (RRA 98)' Section ( 5 ) 3707 and
internal IRS guidelines that prohibit IRS officers and employees from referring to taxpayers as
lllegal Tax Protesters (ITP) or any similar designations. The Treasury Inspector General for Tax
Administration is required to annually evaluate compliance with the prohibition against using the
ITP or any similar designations.' Unless otherwise noted, our limited tests of the reliability of
data obtained fiom various IRS systems did not identify any errors. To accomplish this
objective, we:
I.       Determined if the ITP coding on the IRS Master File3was removed by reviewing all
         Accelerated Issuance Codes (Transaction Code 148) as of September 2005 for Business
         Master File (BMF)' records and Individual Master File (IMF)5records. We analyzed
         179,203 BMF records and 1,033,668 IMF records containing a Transaction Code 148 on
         the account.
         We also compared our historic computer extract of approximately 57,000 taxpayers
         designated as ITPs before the RRA 98 was enacted to our BMF and IMF records with an
         Accelerated Issuance Code (Transaction Code 148) to determine if any new common
         codes were being used to classify the taxpayers as ITPs.
11.      Determined if the IRS Internal Revenue Manual          contained the ITP or any similar
         designations by performing key word searches of the Official IRM on the IRS' Electronic
         Publishing web site, the IRM online, the IRM on the Servicewide Electronic Research
         Program (SERP),' the IRM on IRS.gov, the IRM on CD-ROM, and the paper IRM
         through November 2005. In addition, we determined if the Chief Counsel Directives
         Manual located on the IRS Office of Chief Counsel web site contained the ITP or any


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16U.S.C., 19U.S.C.,22U.S.C.,23 U.S.C., 26U.S.C.,31 U.S.C.,38 U.S.C.,and49U.S.C.).
2
  Internal Revenue Code 3 7803(d)(l)(A)(v) (2000 Suppl. 2).
3
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
4
  The BMF is the IRS database that consists of Federal tax-related transactions and accounts for businesses. These
include employment taxes, income taxes on businesses, and excise taxes.
  The IMF is the IRS database that maintains transactions or records of individual tax accounts.
  The IRM is the manual containing the IRS' internal guidelines.
7
  The SERP is an electronic researching tool containing many former paper research applications (e.g., publications,
the IRM, the Probe and Response Guide, etc.).
                                                                                                            Page 9
                              Fiscal Year 2006 Statutory Audit of Compliance
                                 With Legal Guidelines Prohibiting the Use of
                               Illegal Tax Protester and Similar Designations



        similar designations by performing key word searches in January 2006. We specifically
        searched for corrections to the exceptions identified in our Fiscal Year 2005 repod and
        determined if there were any new references.
111.    Determined if IRS publications still contained the ITP or any similar designations by
        performing key word searches of the SERP, IRS.gov, and the IRS Electronic Publishing
        web site in September 2005 and the IRS 2004 Federal Tax Products CD-ROM in
        October 2005.
IV.     Determined if employees were using the ITP or any similar designations within taxpayer
        case narratives on the IRS Integrated Collection System (ICS)' by securing a copy of the
        ICS database and analyzing approximately 452,000 open ICS cases open as of
        September 2005 from a database with history action dates between October 2004 and
        September 2005.
V.      Determined if employees were using the ITP or any similar designations within taxpayer
        case narratives on the IRS Automated Collection System (ACS)1° by securing a copy of
        the ACS database" and analyzing 2,646,923 ACS cases open as of September 2005 with
        history action dates between October 2004 and September 2005.
VI.     Determined if employees were using the ITP or any similar designations within taxpayer
        case narratives on the IRS Taxpayer Advocate Management Information System
        (TAMIS)12by securing a copy of the TAMIS database and analyzing 41,920 open
        TAMIS cases with activity between October 2004 and September 2005.
        During our limited validation of the TAMIS data, we found some anomalies in the
        records provided to us. While we are confident that we received all of the requested
        TAMIS records, text information in some of the data is missing. In discussions with the
        TAMIS programmers, these anomalies could not be easily corrected within the
        timefiames of our review. As a result, any Treasury Inspector General for Tax
        Administration conclusions/opinions based on these data are qualified.




  Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of Illegal Tax
Protester and Similar Designations (Reference Number 2005-40-104,dated July 2005).
  The ICS is a system used by Collection function employees to report taxpayer case time and activity.
lo The ACS is a telephone contact system through which telephone assistors collect unpaid taxes and secure tax
returns from delinquent taxpayers who have not complied with previous notices.
11
   The ACS database did not always contain employee identifying information to determine the number of
employees using an ITP or similar designation. We assumed that each comment was made by a different employee.
12
   The TAMIS is an electronic database and inventory control system used by Taxpayer Advocate Service
employees.
                                                                                                     Page 10
                              Fiscal Year 2006 Statutory Audit of Compliance
                                 With Legal Guidelines Prohibiting the Use of
                               Illegal Tax Protester and Similar Designations



VII.    Determined if employees were using the ITP or any similar designations within taxpayer
        case narratives on the IRS Appeals Centralized Database System13by securing a copy of
        the database14and analyzing 179,572 Appeals narrative comment records dated between
        October 2004 and September 2005.
VIII. Determined if employees were using the ITP or any similar designations within taxpayer
      case narratives on the IRS Criminal Investigation Management Information System1' by
      securing a copy of the database1' and analyzing 10,076 cases opened and 13,836 cases
      closed between October 2004 and September 2005.




'
13
    A computerized system used to track case receipts, record case time, document case actions, and monitor the
  rogress of the Appeals function workload.
    The Appeals Centralized Database did not contain employee identiQing information to determine the number of
employees using an ITP or similar designation. We assumed that each comment was made by a different employee.
l 5 A management tool used to track the status and progress of criminal investigations.
16
    The open Criminal Investigation Management Information System database did not contain employee identifying
information to determine the number of employees using an ITP or similar designation. We assumed that each
comment was made by a different employee.
                                                                                                      Page 11
                        Fiscal Year 2006 Statutory Audit of Compliance
                           With Legal Guidelines Prohibiting the Use of
                         Illegal Tax Protester and Similar Designations



                                                                           Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
Julia Tai, Lead Auditor
Tanya Boone, Senior Auditor
Craig Pelletier, Auditor




                                                                                  Page 12
       ,... --

                            Fiscal Year 2006 Statutory Audit of Compliance
i
I                              With Legal Guidelines Prohibiting the Use of
                             Illegal Tax Protester and Similar Designations
       ...



                                                                                Appendix Ill

                              Report Distribution List

    Commissioner C
    Office of the Commissioner - Attn: Chief of Staff C
    Commissioner, Small BusinessISelf-Employed Division SE:S
    Commissioner, Wage and Investment Division SE:W
    Chief, Appeals AP
    Chief, Criminal Investigation SE:CI
    Chief Information Officer 0S:CIO
    Director, Office of Research, Analysis, and Statistics RAS
    Director, Communications and Liaison, National Taxpayer Advocate TA:CCL
    Director, Office of Servicewide Policy, Directives, and Electronic Research RAS:SPDER
    Director, Collection, Small BusinessISelf-Employed Division SE:S:C
    Director, Communications, Liaison and Disclosure, Small BusinessISelf-Employed Division
    SE:S:CLD
    Director, Compliance, Wage and Investment Division SE:W:CP
    Director, Strategy and Finance, Wage and Investment Division SE:W:S
    Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
    Chief Counsel CC
    National Taxpayer Advocate TA
    Director, Office of Legislative Affairs CL:LA
    Director, Office of Program Evaluation aad Risk Analysis RAS:O
    Office of Management Controls 0S:CFO:AR:M
    Audit Liaisons:
       Chief, GAOITIGTAILegislative Implementation Branch SE:S:CLD:PSP:GTL
       GAOITIGTA Liaison, Deputy Commissioner for Operations Support OS
       GAOITIGTA Liaison, Deputy Commissioner for Services and Enforcement SE
       GAOITIGTA Liaison, Appeals AP:TP:SS
       GAOITIGTA Liaison, Chief Information Officer 0S:CIO:SM:PO
       GAOITIGTA Liaison, Criminal Investigation SE:CI:S:PS
       GAO/TIGTA Liaison, National Taxpayer Advocate TA
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                        Page 13
                               Fiscal Year 2006 Sfafufoty Audif of Compliance
                                  Wifh Legal Guidelines Prohibifing fhe Use of
                                Illegal Tax Profesfer and Similar Designafions



                                                                                                Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
    Taxpayer Rights and Entitlements - Actual; 287 taxpayers potentially affected (see page 5).

Methodolo_avUsed to Measure the Reported Benefit:
We reviewed the following:
    From the Appeals Centralized Database System' - a total of 179,572 Appeals narrative
    comment records dated between October 2004 and September 2005 and identified 4 case
    narratives that contained similar designations.
    From the Automated Collection SystemZ- approximately 2.6 million cases open as of
    September 2005 from a database with history action dates between October 2004 and
    September 2005 and identified 21 taxpayer case narratives that contained Illegal Tax
    Protester (ITP) or a similar designation.
    From the Criminal Investigation Management Information System3- a total of 10,076 cases
    opened and 13,836 cases closed between October 2004 and September 2005 and identified 7
    taxpayer case narratives that contained similar designations.
    From the Integrated Collection System4- approximately 452,000 open Integrated Collection
    System cases as of September 2005 from a database with history action dates between
    October 2004 and September 2005 and identified 253 taxpayer case narratives that contained
    the ITP or a similar designation.




1
  A computerized system used to track case receipts, record case time, document case actions, and monitor the
progress of the Appeals function workload.
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns fiom
delinquent taxpayers who have not complied with previous notices.
  A management tool used to track the status and progress of criminal investigations.
4
  A system used by Collection function employees to report taxpayer case time and activity.
                                                                                                          Page 14
                                Fiscal Year 2006 Statutory Audit of Compliance
                                   With Legal Guidelines Prohibiting the Use of
                                 Illegal Tax Protester and Similar Designations



    From the Taxpayer Advocate Management Information System5- a total of 41,920 open
    cases with activity between October 2004 and September 2005 and identified 2 taxpayer case
    narratives that contained the ITP or a similar designation.

Tvpe and Value of Outcome Measure:
    Reliability of Information - Actual; one unique ITP reference throughout the various formats
    of the Internal Revenue Manual (IRM) (see page 4).

Methodolonv Used to Measure the Reported Benefit:
As of November 2005, we searched the various formats of the IRM available to Internal Revenue
Service (IRS) employees for ITP references. The one unique ITP reference was found on the
Official IRM on the IRS' Electronic Publishing web site, the IRM online, the IRM on the
Servicewide Electronic Research P r ~ g r a r nthe
                                                , ~ IRM on IRS.gov, the IRM on CD-ROM, and the
paper IRM. This reference was identified and brought to the attention of IRS management
during our previous audit.7




  An electronic database and inventory control system used by Taxpayer Advocate Service employees.
6
  An electronic researching tool containing many former paper research applications (e.g., publications, the IRM, the
Probe and Response Guide, etc.).
  This reference was identified during our Fiscal Year 2005 review because a portion of the IRM was changed from
a picture format into a text format.
                                                                                                           Page 15
                         Fiscal Year 2006 Statutory Audit of Compliance
                            With Legal Guidelines Prohibiting the Use of
                          l//egal Tax Protester and Similar Designations



                                                                               Appendix V

       Examples of Illegal Tax Protester and Similar
          Designations Found in Case Narratives

During our Fiscal Year 2006 review, we searched for the following words and abbreviations to
identify Illegal Tax Protester (ITP) and other similar designations being used by Internal
Revenue Service employees in their case narratives. We did not take exception to employee
comments quoting a taxpayer's self-designation as an ITP.




The following comments made by employees are a few examples of the ITP and similar
designations found in Internal Revenue Service employees' case narratives.




                                                                                      Page 16
                          Fiscal Year 2006 Statutory Audit of Compliance
                             With Legal Guidelhes Prohibiting the Use of
                           Illegal Tax Protester and Similar Designations



                                                                                              Appendix VI

  Management3 Response to the Draft Report


                                   DEPARTMENT OF THE TREASURY                              JUN 0 5
                                      I N T E R N A L REVENUE SERVICE
                                        WASHINGTON. D.C. 20224
                                                                                     2-
O L P U N COYUISSIOIILI

                                               June 5.2006



          MEMORANDUM FOR                                             FOR AUDIT

          FROM:
                                 Deputy Commissioner for Services and Enforcement

          SUBJECT:                                  -
                                Draft Audit Report F i i l Year 2006 Statutory Audit of
                                Compliance Wah Legal Guidelines Prohibiting the Use of Illegal
                                Tax Protester and Similar Designations (Audit 200540039)


         We have reviewed your report and appreciate your acknowledgement of our ongoing
         efforts to comply with Section 3707 of the Internal Revenue Restructuring and Reform
         Act of 1998 (RRA '98). We have taken signifmnt actions to comply with this code
         section to ensure we protect the rights of all taxpayers, including those with
         constitutional or philosophical objections to the tax system. As you note in the report,
         we have removed all IllegalTax Protestor (ITP) codes from the Master File and such
         references from current publications and the Internal Revenue Manual (IRM).

         You identified 130 cases in which IRS employees used the term %axprotestor" or
         similar designation because taxpayers described themselves as such. Although you did
         not consider these history references to be violations, and noted that no taxpayer rights
         were violated, you were concerned that these references could stigmatize these
         taxpayers in future contacts with the IRS.

         The following ia our response to your recommendation.

         RECOMMENDATION 1
         IRS management should issue a memorandumto all employees to reinforce that
         taxpayers are not to be referred to as Yax protesters'. 'ITPs'. constitutionally
         challenged", or by any other similar designations.


         We will issue a memorandum to all employees to reinforce mmpllance with Section
         3707 of RRA '98. In addition, we will work with TlGTA management to reconcile
         differences regarding our legal guidance and take adions as appropriate.

         IMPLEMENTATlON DATE
         June 15.2007




                                                                                                     Page 17
                Fiscal Year 2006 Statutory Audit of Compjiance
                   With Legal Guidelines Prohibiting the Use of
                 Illegal Tax Protester and Similar Designations




RESPONSIBLE OFFICIAL
The Director, Collection Policy, SBISE Division

CORRECTIVE ACTION MONITORING PLAN
The Director, Collection Policy, SBISE Division,will advise the SBISE Commissioner of
any delays in implementing this corrective action.

If you have any questions, please call Kevin Brown, Commissioner, SBISE Division at
(202) 622-0600 or Fred Schindler, Director, Collection Policy, SBISE Division, at
(202) 283-7650.




                                                                                        Page 18
